Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

March 5, 2021
By Electronic Filing
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Johnson & Johnson v. Ingham, No. 20-1223

Dear Mr. Harris:
We represent petitioners Johnson & Johnson and Johnson & Johnson Consumer Inc. in the
above-referenced case. In accordance with Rule 37.2(a) of the Rules of the Supreme Court of the
United States, petitioners hereby grant blanket consent to the filing of amicus curiae briefs in
support of either or neither party in this case.
Sincerely,
/s/ Neal Kumar Katyal
Neal Kumar Katyal
neal.katyal@hoganlovells.com
Counsel for Petitioners
cc:

Thomas C. Goldstein

